National Aeronautics and
Space Administration

Office of Inspector General
Washington, DC 20546-0001


                                                     July 8, 2008

TO:                 Associate Administrator for Exploration Systems
                    Associate Administrator for Space Operations

FROM:               Assistant Inspector General for Auditing

SUBJECT:            Final Memorandum on the Review of NASA’s Plan to Build the
                    A-3 Facility for Rocket Propulsion Testing (Report No. IG-08-021;
                    Assignment No. S-08-012-00)


The Office of Inspector General (OIG) conducted a review of NASA’s plan to build a
new rocket propulsion test facility. 1 We initiated this review in response to a complaint
forwarded to the NASA OIG from the Government Accountability Office (GAO),
alleging that NASA’s planned rocket propulsion test facility at the Stennis Space Center
would duplicate the capabilities found at the Air Force’s Arnold Engineering
Development Center (AEDC) in Tennessee.

Specifically, the complainant alleged that

       •   NASA ignored the National Rocket Propulsion Test Alliance (NRPTA) process
           when deciding to build a new test facility at Stennis;

       •   the planned Stennis test facility would duplicate existing capabilities found at
           AEDC; and

       •   building the facility would result in a waste of funds.

See Enclosure 1 for details on our scope and methodology.

Executive Summary
The NRPTA, formed by an agreement between NASA and the Department of Defense
(DoD), was established to shape the Government’s rocket propulsion testing capability to
efficiently meet national test needs through intra- and inter-agency cooperation. The
NRPTA reviews testing needs and recommends solutions that provide the best overall
value to the taxpayer. NASA’s Rocket Propulsion Test Management Board (RPTMB)
serves as the NASA decision-making body for rocket propulsion testing.

1
    The structure NASA plans to build is technically a single rocket propulsion “test stand.” However, the
    allegation referenced a “facility,” as does the preponderance of documentation, including briefs and
    reports, used for this review. For the purpose of this report, the terms are interchangeable.
                                                                                           2



We found that NASA’s Upper Stage Engine (USE) Element Manager, located at
Marshall Space Flight Center in Alabama, reviewed the J-2X rocket propulsion testing
options and selected the A-3 test stand to be built at Stennis without the required formal
reviews or recommendations of the NRPTA, or NASA’s RPTMB. This occurred because
NASA did not appropriately engage the NRPTA as required by the NRPTA
Memorandum of Agreement (MOA). The NRPTA MOA and the RPTMB Operating
Procedures require member reviews and recommendations prior to major test facility
investments or modifications. In addition, we found that the processes contained in the
the NRPTA MOA and the RPTMB Operating Procedures are not included in either a
NASA Policy Directive or NASA Procedural Requirements.

Although the Rocket Propulsion Test (RPT) Program office used the NRPTA to gather
information on potential J-2X testing options, NASA did not make a request for NRPTA
member reviews and recommendations and subsequently made a unilateral decision to
build the A-3 test stand at Stennis. The USE Element Manager stated that he selected the
A-3 without, or prior to, receiving any recommendations from the RPTMB or NRPTA
because the selection needed to be made in March 2007 to maintain the critical path of
the Ares Project. We confirmed that the test facility was on the Ares Project’s critical
path. However, we found that the schedules projected for the A-3 and upgrading
AEDC’s J-4 facility, which presented a competing option, were the same, 3½ years.
Although the critical path of the Ares Project may explain the timing of the decision, it
does not adequately justify the decision to build the A-3 exclusive of cost and technical
risk comparisons with other facilities as would have been provided if the appropriate
request was made of the NRPTA.

We also found that the test stand NASA intends to build at Stennis would not duplicate
existing capabilities found at AEDC. We reviewed the J-2X engine testing requirements
and determined that at the time of the decision to build the A-3, in May 2007, a test stand
with all of the testing capabilities required for the new J-2X engine, as defined by
Constellation Program and Ares Project requirements, was not available at AEDC,
Stennis, or any other NASA or DoD facility. In addition, based on current cost estimates,
we determined that building the A-3 would not be a waste of funds. However, concerns
with the technical risks associated with the A-3 design and operations remain and could
result in significant cost increases and schedule delays, which may in the future
substantiate an alternative option as ultimately more cost-effective. Using the NRPTA
process could have provided a forum for the resolution of these concerns and the
development of a risk mitigation strategy, which may have provided added assurance of
the successful development and implementation of a facility to meet J-2X engine testing
requirements.

By failing to appropriately engage the NRPTA, NASA may have missed an opportunity
to promote a more cooperative partnership with DoD in the area of rocket propulsion
testing as well as an opportunity to benefit from the technical expertise resident among
NRPTA members. In addition, because of NASA’s unilateral decision, the Agency
assumed technical and cost risks without the benefit of an independent review and the
recommendations of NRPTA members.
                                                                                            3



Our May 19, 2008, draft of this memorandum recommended that the Associate
Administrator for Space Operations issue a NASA Policy Directive (and NASA
Procedural Requirements, if applicable) detailing the requirement for NASA’s rocket
propulsion test organizations to request formal reviews and recommendations from the
RPTMB and, as applicable, the NRPTA, in accordance with RPTMB and NRPTA
guidelines. Additionally, we recommended that the Associate Administrator for
Exploration Systems take advantage of the technical expertise available in the rocket
propulsion test community and request an independent review and assessment of the
technical and cost risks associated with the planned A-3 test stand in order to develop a
comprehensive risk mitigation strategy.

Management provided an initial response to the recommendations on June 30, 2008 (see
Enclosure 3), and subsequently provided estimated completion dates, which we included
in the “Recommendations, Management Response, and Evaluation” section of this
memorandum. Management’s comments are responsive. In commenting on the draft of
this memorandum, NASA management concurred with our recommendations and
proposed appropriate corrective actions. The recommendations are resolved and will be
closed upon completion and verification of management’s corrective actions.

Background
The Stennis Space Center in Mississippi is NASA’s primary Center for the testing and
flight certification of rocket propulsion systems for the Space Shuttle and future
generations of space vehicles. Because of its role in engine testing for four decades,
Stennis has evolved into a multi-agency, multidisciplinary center for Federal, State,
academic, and private organizations engaged in space, ocean, and environmental
programs, as well as national defense. In addition to NASA, there are 30 other agencies
located at Stennis.

NASA’s RPT Program office—located at Stennis under the Space Operations Mission
Directorate (SOMD)—reviews, approves, and provides direction on rocket propulsion
testing assignments, capital asset improvements, test facility modernization and
refurbishments, integration for multi-site test activities, identification and protection of
core capabilities, and the advancement and development of test technologies. NASA’s
RPT Program office provides the program management structure for accomplishing
rocket propulsion testing and is NASA’s authority for rocket propulsion assignments and
management of the budget for rocket propulsion testing.

NASA’s RPTMB consists of member organizations (Marshall, Stennis, Plum Brook
Station, and White Sands Test Facility) and associate members (Glenn Research Center
and Kennedy Space Center) and serves as the NASA decision-making body for rocket
propulsion testing, and the RPTMB reviews, approves, and provides direction on the
following:
   •   All testing assignments.
                                                                                                        4



      •    All capital investment recommendations for rocket propulsion test facilities and
           equipment.
      •    All facility modifications or refurbishments affecting the Agency’s rocket
           propulsion test capability.
      •    Annual budget requirements (establishment and approval).
      •    All official documentation pertaining to multi-site test activities.
      •    All key decisions relating to NASA rocket propulsion testing.

NASA’s RPT Program Manager is a member of the NRPTA. 2 The NRPTA, formed by
an agreement between NASA and DoD and jointly chaired by the two organizations, was
established to shape the Government’s rocket propulsion testing capability to efficiently
meet national test needs through intra- and inter-agency cooperation. The NRPTA
reviews testing needs and recommends solutions that provide the best overall value to the
taxpayer.

The NRPTA’s Senior Steering Group (SSG) is an advisory group made up of senior
officials from NASA and each DoD member organization. 3 The SSG is chartered to
provide guidance and direction to the NRPTA. Additionally, the SSG provides a forum
for NRPTA members to present recommendations and proposed actions and to obtain
resolution of disagreements. Senior NASA and DoD officials signed the initial MOA for
the NRPTA on January 9, 1998, and the most recent MOA on January 15, 2003. In
addition to the MOA, the NRPTA Operating Procedure provides detailed guidelines for
the NRPTA process.

Under the Exploration Systems Mission Directorate (ESMD), the Constellation Program,
located at Johnson Space Center in Texas, has overall responsibility for the development
of the vehicles (crew exploration vehicle and crew launch vehicle) and related systems
that will support NASA’s exploration missions to extend a human presence throughout
the solar system. The Exploration Launch Office, located at Marshall, is responsible for
the design and development of the Ares vehicles (the Ares I crew launch vehicle and the
Ares V cargo launch vehicle) that will support the Constellation Program. The
Exploration Launch Office’s USE Element Manager is responsible for the development
of the J-2X rocket engine.

NASA is developing the new J-2X rocket engine to power the upper stage of Ares I and
the Earth departure stage of Ares V (as shown in the following figure). Powered by
liquid oxygen and liquid hydrogen, the J-2X is an evolved variation of two historic

2
    The NRPTA consists of nine members: one each from the four DoD rocket test sites (AEDC; Air Force
    Research Laboratory Propulsion Directorate; Army Redstone Technical Test Center; and Naval Air
    Warfare Center, Weapons Division, China Lake); one each from the four NASA test sites (Marshall,
    Stennis, Plum Brook Station, and White Sands Test Facility); and the RPT Program Manager.
3
    The SSG consists of one NASA representative and one representative from each of DoD’s four member
    organizations (AEDC; Air Force Research Laboratory Propulsion Directorate; Army Redstone Technical
    Test Center; and Naval Air Warfare Center, Weapons Division, China Lake).
                                                                                                            5



predecessors: the J-2 upper stage engine that propelled the Apollo-era Saturn IB and
Saturn V rockets to the Moon in the late 1960s and 1970s, and the J-2S, a simplified
version of the J-2 developed and tested in the early 1970s but never flown. Testing of the
turbo machinery, injector hardware, and ignition system components of the J-2X is
ongoing. On April 3, 2008, NASA’s Associate Administrator for ESMD explained
during a congressional hearing before the House Science and Technology Committee’s
Subcommittee on Space and Aeronautics that early J-2X testing was underway at
Stennis’s A-1 test stand and that the A-2 test stand at Stennis would be providing early
developmental testing. 4 The first integrated testing of the full J-2X engine system is
scheduled for September 2010. During testing, the J-2X will require long duration run
times at vacuum pressure to simulate the environmental conditions it will encounter
during flight. As of May 2008, there was no test facility equipped with the capabilities
necessary to satisfy this testing requirement.

                                   Ares I and Ares V Launch Vehicles




                                                               Earth Departure Stage
                         Upper Stage                           J-2X Engine
                         J-2X Engine




                                        Ares I        Ares V
                                                 Source: NASA Ares I and Ares V Fact Sheets


4
    Witness testimony is available at http://science.edgeboss.net/real/science/scitech08/040308.smi (accessed
    April 17, 2008).
                                                                                            6



In November 2006, the USE Element office defined the J-2X engine testing requirements
and established a Study Team to assess facility options for the testing. In December 2006
and January 2007, the Study Team visited AEDC, Glenn Research Center in Ohio, and
Stennis to hold concept familiarization meetings for the prospective test stands: the J-4 at
AEDC, the B-2 at Glenn’s Plum Brook Station, and the planned A-3 at Stennis. Each
facility developed supportability concepts and cost estimates for meeting the stated
testing requirements for the J-2X engine. In February 2007, the Study Team held
multiple briefs with representatives from the J-2X Project Office, AEDC, Glenn, and
Stennis to discuss the Team’s results and the technical risks associated with developing
each facility’s test stand for J-2X engine testing.

On March 1, 2007, AEDC notified the RPT Program office and the Exploration Launch
Office of a technical issue with its original J-4 design concept for J-2X engine testing that
would result in significantly greater cost than originally estimated. This new cost
estimate was roughly equivalent to the estimated cost of the A-3. On March 2, 2007, the
Exploration Launch Office’s USE Element Manager selected the planned A-3 for J-2X
testing, commenced construction planning for the test stand, and created a NASA-led
“Red Team.” The Red Team was tasked with generating a cost estimate of the A-3
proposal, assessing the A-3 schedule, and evaluating technical risks. The USE Element
Manager selected AEDC’s J-4 as the backup test stand in case the Red Team’s evaluation
of Stennis’s A-3 did not confirm the A-3 Project Office’s estimates.

The Red Team review concluded that the costs of building the A-3 were commensurate
with the costs of upgrading the J-4, the schedule was attainable, and the technical risks
were manageable. Subsequently, the USE Element Manager recommended construction
of the A-3 test stand at Stennis in support of J-2X engine testing in a briefing to the
following:
   •   USE Element Control Board
   •   Exploration Project (Ares Project Manager and Constellation Test and
       Verification Manager)
   •   Constellation Program Manager
   •   Marshall and Stennis Center Directors
   •   ESMD and SOMD Associate Administrators
   •   NASA Administrator

On May 1, 2007, the NASA Administrator approved the construction of the A-3 test
stand at Stennis, and ground was broken on August 23, 2007.
                                                                                                     7



Allegations

Allegation 1. NASA ignored the NRPTA process when deciding to build a new test
facility at Stennis.

We found that NASA did not follow the NRPTA process, or NASA’s RPTMB process,
in choosing to build the A-3 as the best course of action to meet testing requirements for
the J-2X rocket engine. Instead, the Exploration Launch Office reviewed the J-2X rocket
propulsion testing options and selected the A-3 test stand without the formal NRPTA
review and recommendations required by RPTMB and NRPTA guidelines. This
occurred because the USE Element Manager did not appropriately engage the NRPTA, as
required by the NRPTA MOA. The USE Element Manager used the NRPTA to gather
information instead of requesting the appropriate NRPTA member reviews and
recommendations for J-2X testing options. NASA Policy Directives and NASA
Procedural Requirements do not require adherence with RPTMB or NRPTA guidelines,
which may have contributed to this decision.

NASA Selected A-3 without NRPTA Member Reviews and Recommendations. In
December 2006, NASA’s RPT Program office submitted an Action Request 5 to the
NRPTA to support a “J-2X Altitude Facility Cost and Capabilities Study.” According to
the NRPTA Operating Procedure, an Action Item Request is used to initiate a review of
facility investments, test assignments, and changes in status or functionality. The
December 2006 request simply stated that the “J-2X Engine Project has commissioned a
comparative study to be briefed to RPT Program Office and J-2X Engine Project, (by Feb
2007).” The Study Team was led by personnel from Marshall. All submissions from
rocket propulsion test sites, including DoD partners, were coordinated through NASA’s
RPT Program office. In April 2007, the RPT Program office drafted the following
NRPTA recommendation:
          Support has been provided to J-2X project office in the form of facilitating the
          collection of data from the requisite NRPTA members: AEDC, SSC [Stennis Space
          Center], and PBS [Plum Brook Station]. A secure FileShare FTP Site was established
          for the electronic transport of the large data files. Additionally, meeting facilitation
          and WebEx support were provided. No additional requirements are anticipated for
          this support, and no specific recommendations need be made. Suggest the NRPTA
          close the associated Action Request, and this Recommendation.

Although the RPT Program office solicited NRPTA member input to assist in
accumulating facility capability information and preliminary designs, no other Action
Item Requests were submitted to the NRPTA. Specifically, no Action Item Request was
ever developed or submitted to review facility options for a new test requirement.
Therefore, contrary to the terms of the MOA and the NRPTA Operating Procedure,



5
    NASA’s RPTMB Operating Procedures labels this document an “Action Request.” The NRPTA
    Operating Procedure refers to the comparable document as an “Action Item Request.”
                                                                                            8



NRPTA members were never provided the opportunity to review, discuss, or vote on the
respective options for addressing the new test requirement.

The USE Element Manager selected the A-3 for J-2X testing without recommendations
from NASA’s RPTMB or the NRPTA. Reasons cited by the USE Element Manager as
the basis for the decision to build the A-3 test stand, instead of using AEDC’s existing J-4
test stand, included

   •   the A-3 had the lowest non-recurring cost solution;

   •   the A-3 had the shortest schedule to activation;

   •   the A-3’s technical risk was manageable;

   •   the A-3 would be co-located with three other test stands, allowing for shared
       resources among the A-3, engine assembly facility, sea-level test facility, and
       passive-diffuser test facility; and

   •   the A-3 would provide a multi-purpose testing capability, which would allow for
       the consolidation of testing into one test stand, resulting in long-term recurring
       benefits that include having a NASA test stand (the A-3) available for flight
       engine acceptance testing, anomaly resolution, and testing of future engine
       upgrades.

The USE Element Manager stated that he selected the A-3 without, or prior to, receiving
any recommendations from the RPTMB or NRPTA because the selection needed to be
made in March 2007 to maintain the critical path of the Ares Project. He stated that a
March 2007 decision was required in order to either refurbish the J-4 or build the A-3 and
have initial operational capability by September 2010 for the planned January 2011
testing. We confirmed that the test facility was on the Ares Project’s critical path, which
may have influenced the USE Element Manager’s decision to select a facility at that time.
However, we found that the schedules projected for the A-3 and J-4 facility were the
same, 3½ years. Although the critical path of the Ares Project may explain the timing of
the decision, it does not adequately justify the decision to build the A-3 exclusive of cost
and technical risk comparisons with other facilities as would have been provided if the
appropriate request had been made of the NRPTA.

Rocket Propulsion Testing Decision Process. There is no NASA Policy Directive or
NASA Procedural Requirements that contains any provision to direct the use of RPTMB
or NRPTA processes when contemplating rocket propulsion testing or facility
modifications. However, RPTMB Operating Procedures and the NRPTA MOA and
Operating Procedure contain specific requirements for member organizations to request
reviews and recommendations when considering rocket propulsion testing needs and
facility modifications. These Operating Procedures are designed to ensure that testing
requirements are adequately addressed in the decision-making process.
                                                                                                                 9



RPTMB Operating Procedures state that when an RPTMB member organization desires
to make a facility modification greater than $500,000 or a baseline capability deviation,
or is contacted about potential testing, an RPTMB Action Request and any related
information is to be forwarded to the RPT Program office. The RPT Program office
distributes the information to all RPTMB members, who evaluate Action Requests to
ensure project requirements are adequately considered and addressed in the decision-
making process. When modifications to a facility or unique equipment investments for a
test program exceed $1 million in 1 year or $5 million total, RPTMB Operating
Procedures state that the RPT Program office’s distribution is to include all NRPTA sites,
and the NRPTA process is to be followed.

The NRPTA MOA between NASA and DoD states that the NRPTA will “review
significant facility modifications, upgrades, and new construction and make formal
recommendations to guide NASA and DoD rocket test facility investments.” The MOA
further states that NRPTA member organizations will “[c]onduct test programs within the
established test capability database, roadmaps and investment strategies [and] obtain
Alliance recommendation if a test program or capacity is contemplated outside these
guidelines. . . . The NRPTA, as a group, will integrate, review and approve products from
Alliance member inputs and make recommendations to agency management and the
SSG, including all dissenting opinions.”

The NRPTA Operating Procedure provides detailed guidelines applicable to all rocket
propulsion test activities conducted at DoD or NASA locations. The NRPTA Operating
Procedure states that an Action Item Request will be submitted by any member
organization to its respective NRPTA chair (NASA or DoD) to document planned actions
or investments or to initiate a review of issues raised by the NRPTA membership, to
include facility investments, test assignments, and changes in status or functionality. All
facilities belonging to NRPTA members, as well as commercial facilities, are considered
for each new capability, modification, investment, or test assignment. Once NRPTA
members have discussed and validated an Action Item Request, the NRPTA members
affected by the proposed action develop Decision Packages. Decision Packages are
distributed to NRPTA members and, following the NASA/DoD co-chairs’ determination
that sufficient discussion has occurred, members vote on the respective options. The
position with the most votes is forwarded as the NRPTA recommendation. Unresolved
issues are forwarded to the SSG for resolution.

NASA Management Did Not Honor Provisions of the NRPTA MOA. GAO’s March
1998 report, “Aerospace Testing: Promise of Closer NASA/DoD Cooperation Remains
Largely Unfulfilled,” cited that “[c]ongressional intent, 6 as reflected in the statutory

6
    Section 211(c) of the National Defense Authorization Act for Fiscal Year 1997 (Pub. L. 104-201,
    Sept. 23, 1996) states: “Not later than 90 days after the date of the enactment of this Act, the Secretary
    of Defense and the Administrator of the National Aeronautics and Space Administration shall submit to
    Congress a joint plan for coordinating and eliminating unnecessary duplication in the operations and
    planned improvements of rocket engine and rocket engine component test facilities managed by the
    Department of the Air Force and the National Aeronautics and Space Administration. The plan shall
    provide, to the extent practical, for the development of commonly funded and commonly operated
    facilities.”
                                                                                          10



requirement for joint planning of rocket propulsion test facilities, is not being fully met
by NASA and DOD.” The report stated that inter-agency competition was one reason for
the largely unfulfilled promise of closer NASA/DoD cooperation and the development of
a national perspective on aerospace test facilities.

The NRPTA MOA, which was first signed in January 1998, states that the NRPTA will
review significant facility modifications, upgrades, and new construction and make
formal recommendations to guide NASA and DoD rocket test facility investments.
NASA management did not facilitate the required inter-agency discussions or
cooperation, but instead chose to have NASA’s RPT Program office review the J-2X
testing options and the USE Element Manager brief those options to the Administrator.

The DoD co-chair of the NRPTA stated that NASA’s actions were not in keeping with
the provisions of the NRPTA MOA and expressed concern regarding future cooperation
between DoD and NASA. AEDC personnel also emphasized that DoD members of the
NRPTA were not given the opportunity to view or comment on the USE Element
Manager’s May 1, 2007, briefing to the NASA Administrator and were excluded from
any final discussion of the J-2X test facility decision. Additionally, AEDC personnel
stated that the briefing presentation contained some erroneous information, including
statements that AEDC’s schedule to deliver an operational facility was 3 months longer
than the A-3 schedule and that AEDC could not provide NASA guarantees as to the long-
term availability of the J-4 facility.

AEDC personnel stated that the J-4 facility option was at a disadvantage because NASA
had not used the NRPTA process and only NASA presented information on the J-2X
options to Constellation Program managers and the Administrator. Had NASA vetted the
decision through the NRPTA process, the NRPTA could have addressed AEDC’s
concerns before NASA made the decision to build the A-3.

We found that NASA did not provide DoD members of the NRPTA the opportunity to
view, substantiate, or comment on the content of the decision briefing presented to the
NASA Administrator or on the studies used in support of the briefing’s content. As a
result, NASA not only missed an opportunity to fulfill congressional requirements of
fostering a more cooperative partnership with DoD in the area of rocket propulsion
testing, but may have forfeited potential benefits gained from the technical expertise
resident among NRPTA members to recognize and mitigate technical risks of the A-3’s
design.

Allegation 2. Building a new rocket propulsion test facility at Stennis would duplicate
existing capabilities found at AEDC in Tennessee.

We found that the test stand NASA intends to build at Stennis would not duplicate
existing capabilities found at AEDC. We reviewed the J-2X engine testing requirements
and determined that at the time of the decision to build the A-3, in May 2007, a test stand
with the long duration run time at vacuum pressure testing capability required for the new
J-2X engine, as defined by Constellation Program and Ares Project requirements, was not
                                                                                                         11



available at AEDC, Stennis, or any other NASA or DoD facility. AEDC personnel
confirmed in January 2008 that the J-4 test stand did not have the capability to meet the
requirements. They provided us a copy of an AEDC presentation made to NASA’s RPT
Program office on January 19, 2007. The presentation, “J-4 Test Facility Reactivation
and Modification Study for NASA’s Ares I J-2X Engine Simulated Altitude Test
Program,” addressed AEDC’s feasibility assessment of reactivating and improving the
J-4 for simulated altitude testing of the J-2X and a possible reconfiguration concept. The
AEDC presentation showed that the J-4 test stand would require significant
refurbishment and modification to satisfy all of the J-2X test requirements. AEDC
personnel estimated that refurbishment and modification costs would be around
$135 million. Additionally, commission, testing, and activation costs amounted to
$31 million, resulting in a total cost of approximately $166 million to bring the J-4 test
stand up to full operational capability for J-2X testing.

Existing NASA facilities also did not possess a test stand able to meet the technical
requirements for J-2X engine testing. On January 5, 2007, the RPTMB issued a directive
that confirmed neither the A-1 nor A-2 at Stennis was suitable for J-2X engine testing.
Additionally, the NASA Engineering and Safety Center (NESC) 7 performed a feasibility
assessment for conducting J-2X engine testing at Plum Brook Station’s B-2. NESC
issued a report on its assessment on March 15, 2007, “Feasibility of Conducting J-2X
Engine Testing at the Glenn Research Center (GRC) Plum Brook Station (PBS) B-2
Facility,” in which NESC stated that, among other technological challenges, “concepts
significantly different from the current configuration are necessary for the diffuser, spray
chamber subsystems, and cooling water.”

NASA’s RPT Program office also contracted an independent firm, Aerospace
Corporation, to conduct a study to provide “an assessment of whether the capabilities of
the existing liquid rocket propulsion testing infrastructure are consistent with the
emerging testing requirements envisioned over the next ten years.” The study considered
current and emerging user needs and the associated programs of NASA, DoD, and
commercial providers. In June 2007, Aerospace Corporation provided a report of its
results and conclusions, “Rocket Propulsion Test Capability Alignment Study.”
Aerospace Corporation found that “[t]he primary shortcoming identified in this study was
in the area of satisfying particular requirements for long duration altitude/cold soak
testing for the NASA Ares I second stage engine system [J-2X] and stage. These would
require either significant upgrades to existing facilities or the development of a new
facility.” Aerospace Corporation stated that in order to meet the J-2X testing requirement
of long duration run times at vacuum pressure, the J-4 facility would need to increase its
liquid hydrogen storage capacity and procure a new propellant storage system and water
chiller, as well as new steam supply, control, and ejectors. Aerospace Corporation
concluded that these upgrades and refurbishments would cost approximately
$134 million.

7
    NESC is an independently funded program with a dedicated team of technical experts. NESC provides
    objective engineering and safety assessments of NASA’s high-risk projects to ensure safety and mission
    success.
                                                                                           12



Allegation 3. Building the new A-3 test facility at Stennis would result in a waste of
funds.

Our analyses of the various test facility cost estimates indicate that building the A-3
would not be a waste of funds. However, unresolved issues related to the technological
risks of the proposed A-3 design and additional costs that have recently been identified
could result in significant cost increases and schedule delays, which could in the future
prove that an alternative option would have been more cost-effective.

We confirmed that existing facilities could not meet the requirements for testing the
J-2X; therefore, a significant expenditure of funds was necessary to either modify an
existing test stand or build a new one. We found that the most recent A-3 cost estimates,
from Stennis’s A-3 Project Office (February 2008), Aerospace Corporation (June 2007),
and the NASA Red Team (March 2007), ranged from $163 million to $185 million.
These cost estimates were less than the NESC cost estimate (March 2007) of
$173 million to $198 million to modify the B-2 at Plum Brook Station and within
approximately 10 percent of AEDC’s cost estimates (January 2007) of $152 million to
$166 million for the activation and modification of the J-4 (see Enclosure 2). On April 9,
2008, because of indications of increasing costs, the A-3 Project Manager directed a
standdown of some A-3 design work until cost reviews and mitigation plans were
developed. An April 30, 2008, Jacobs Technology, Inc. presentation showed a
significant increase in the cost of labor and materials. Additionally, questions concerning
the technological feasibility of the planned A-3 design have been raised, which could
impact the final cost and scheduled availability of the test stand.

AEDC and NASA RPTMB personnel had expressed to the RPT Program office concerns
with the technical risks associated with the A-3 design and operations. Of primary
concern is the technical design risk posed by the development of the chemical steam
generator (CSG) system. CSGs, using isopropyl alcohol, liquid oxygen, and water, are
used to achieve the simulated altitude environment. CSGs are designed to run for the
duration of the engine test, generating approximately 4,620 pounds per second of steam
in order to reduce the pressure in the test cell and downstream of the engine. AEDC
personnel expressed concern that NASA minimized technical risk by rating the A-3’s use
of 27 CSGs as a medium risk. Their opinion was that the risk should be rated medium to
high since the design is fashioned after the CSG system at NASA’s White Sands Test
Facility, which uses only three CSGs. White Sands personnel expressed concern that the
planned techniques for bringing the A-3’s CSGs online and for shutting them down are
unproven and considered very significant technical risks. NASA RPTMB members also
expressed concerns about the plan to use CSG techniques that had not been attempted
before and might not be possible.

There are additional technological risks associated with the planned A-3 test stand
design. RPTMB members were concerned that converting the A-3 to a sea-level test
facility may not be practical from a cost and scheduling standpoint. AEDC personnel
also questioned NASA’s use of the A-3 for future sea-level and altitude testing, stating
                                                                                       13



that they did not believe the A-3’s design would permit such reconfiguration without
significant modification and additional operating costs.

In addition, the June 2007 Aerospace Corporation study included additional concerns
with the A-3, citing two specific technical risks: (1) the ability to manage a smooth
shutdown that will not damage the J-2X engine nozzle and (2) adequate cooling of the
diffuser wall may require some modification to the design. However, these concerns
were not considered during the decision-making process because the report on Aerospace
Corporation’s study was issued over a month after the NASA Administrator had
approved the construction of the A-3.

The USE Element Office did not provide feedback regarding the identified risks and, as a
result, questions persist as to how NASA plans to mitigate those risks, which could
impact the final cost and development schedule of the facility. Using the RPTMB and
NRPTA processes could have provided a forum for members to communicate their
opinions and resolve their concerns.

Recommendations, Management’s Response, and Evaluation of
 Management’s Response
Recommendation 1. We recommended that the Associate Administrator for Space
Operations issue a NASA Policy Directive (and NASA Procedural Requirements, if
applicable) detailing the requirement for NASA’s rocket propulsion test organizations to
request formal reviews and recommendations from the RPTMB and, as appropriate, the
NRPTA, in accordance with RPTMB and NRPTA guidelines.

   Management’s Response. The Associate Administrator for Space Operations
   concurred, but noted that the RPT Program Commitment Agreement and NRPTA
   MOA are in revision. Both documents are scheduled for completion in December
   2008. Concurrently, SOMD intends to draft a NASA Policy Directive. SOMD
   estimates the NASA Policy Directive will be approved and in place by August 30,
   2009.

   Evaluation of Management’s Response. Management’s planned action is
   responsive. The recommendation is resolved and will be closed upon completion
   and verification of management’s corrective action.
                                                                                         14



Recommendation 2. We recommended that the Associate Administrator for Exploration
Systems take advantage of the technical expertise available in the rocket propulsion test
community and request an independent review and assessment of the technical and cost
risks associated with the planned A-3 test stand in order to develop a comprehensive risk
mitigation strategy.

   Management’s Response. The Associate Administrator for Exploration Systems
   accepted the recommendation and intends to take advantage of the technical expertise
   available in the rocket propulsion test community and form independent cost
   estimates for the planned A-3 test stand. Results of the assessment will be used to
   ensure technical, cost, and schedule threats are identified and are incorporated into the
   existing threat and risk management systems. ESMD will request that an independent
   cost assessment of technical and cost risks associated with the planned A-3 test stand
   be completed by November 30, 2008.

   Evaluation of Management’s Response. Management’s planned action is
   responsive. The recommendation is resolved and will be closed upon completion and
   verification of management’s corrective action.

We appreciate the courtesies extended during our review. If you have any questions, or
need additional information, please contact Mr. Raymond Tolomeo, Science and
Aeronautics Research Director, at 202-358-7227.


   signed
Evelyn R. Klemstine

3 Enclosures

cc:
Chief Engineer
Assistant Administrator for External Relations
Director, Johnson Space Center
Director, Marshall Space Flight Center
Director, John C. Stennis Space Center
                              Scope and Methodology
We performed this review from January through May 2008 in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform our work to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on the objectives. We believe that the evidence
obtained during this review provides a reasonable basis for our findings and conclusions
based on our objectives.

For this review, we interviewed

   •   Marshall and Stennis employees who prepared A-3 cost estimates and performed
       analyses of the J-2X engine test facility options and the Environmental
       Assessment;

   •   past and current members of the RPTMB and NRPTA;

   •   AEDC personnel; and

   •   Aerospace Corporation employees involved in the development of the “Rocket
       Propulsion Test Capability Alignment Study.”

In addition to interviewing RPTMB and NRPTA members, we reviewed SSG
documentation to determine whether the SSG evaluated, discussed, and approved the
development of the new test site. The documentation included the minutes for the June
2007 NRPTA SSG Meeting. We also reviewed the minutes to determine whether NASA
or AEDC personnel expressed opinions related to the A-3 decision.

We interviewed AEDC personnel to determine NASA’s prior use of AEDC facilities, the
status of the J-4 test stand, and AEDC’s opinion of the A-3 decision. We also reviewed
AEDC’s October 2007 draft report, “J-4 Test Facility Reactivation Study for NASA’s
J-2X Engine” to determine AEDC’s assessment of NASA’s decision to select the A-3 for
J-2X testing.

We reviewed documentation of AEDC’s J-4 cost estimates provided to NASA in various
reports. We also obtained and reviewed data that Aerospace Corporation provided to
NASA, including the June 21, 2007, “Rocket Propulsion Test Capability Alignment
Study.” We compared the various cost estimates, to include the Red Team and A-3
Project Office estimates; verified adherence to Office of Management and Budget (OMB)
criteria to establish reasonableness; and determined the specific data applicable for
comparative cost analysis.

We did not evaluate the technological feasibility of individual test stand designs or
proposed modifications.




                                                                                Enclosure 1
                                                                                Page 1 of 3
Additional documentation and applicable regulations, policies, and instructions relating
to the allegations that we reviewed included

   •   RPTMB Operating Procedures;

   •   the NRPTA MOA and Operating Procedure;

   •   Stennis Policy Directive 1107.1, Rev. D, “John C. Stennis Space Center, SSC
       Organization, Mission and Responsibilities-TA00/Rocket Propulsion Test
       Program Office – Appendix J,” September 2006;

   •   Stennis Work Instruction SOI-8080-0045-LC, “NASA Rocket Propulsion Test
       Management Board (RPTMB) Operating Procedures,” June 2006;

   •   Rocket Propulsion Test Program Commitment Agreement, May 2005;

   •   the chronology of events from the November 30, 2006, altitude facility study
       kick-off through the Agency’s decision to approve the A-3 on May 1, 2007;

   •   NASA’s “J-2X Altitude-Simulation Test Facility Recommendation, May 1,
       2007,” which documents NASA’s process and justification for selecting the A-3
       as the best course of action; and

   •   information from NASA personnel regarding the RPTMB and NRPTA processes
       and how NASA determined that the A-3 facility was the best course of action.

Computer-Processed Data
We relied on computer-processed data for this review. We obtained A-3 cost estimates
from the A-3 Project Manager at Stennis. We performed limited testing to validate the
reliability and integrity of estimated costs by comparing project element costs presented
in a February 2008 A-3 Work Breakdown Structure with cost amounts in awarded
contracts and vendor quotes. We found no discrepancies and, based on our limited
testing, we placed reliance on the adequacy of the data and considered it sufficient for the
purposes of our review.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) and the NASA
OIG have issued three reports of particular relevance to the subject of this memorandum.
In addition, GAO testimony in 2008 and a GAO report issued in 1998 are relevant.
Unrestricted GAO publications can be accessed over the Internet at http://www.gao.gov,
and unrestricted NASA reports are available at http://oig.nasa.gov/audits/reports/FY08/.




                                                                                Enclosure 1
                                                                                Page 2 of 3
Government Accountability Office

“NASA: Ares I and Orion Project Risks and Key Indicators to Measure Progress”
(GAO-08-186T, April 3, 2008)

“Agency Has Taken Steps Toward Making Sound Investment Decisions for Ares I but
Still Faces Challenging Knowledge Gaps” (GAO-08-51, October 31, 2007)

“Aerospace Testing: Promise of Closer NASA/DoD Cooperation Remains Largely
Unfulfilled” (GAO/NSIAD-98-52, March 11, 1998)

National Aeronautics and Space Administration

“Final Memorandum on the Audit of NASA’s Management of the Test Operations
Contract” (Report No. IG-08-019, May 9, 2008)

“Final Memorandum on the Audit of Requirements for Testing Facilities at Plum Brook
Station” (Report No. IG-07-033, September 28, 2007)




                                                                         Enclosure 1
                                                                         Page 3 of 3
                            Summary of Cost Estimates
A-3 Project Office Cost Estimate. The A-3 Project Office formulated the A-3 cost
estimate with the assistance of Jacobs Technology, Inc. In January 2007, the A-3 Project
Office initially estimated the cost to build the A-3 test stand at $119 million. In March
2007, the Project Office revised this estimate to $163 million, which included validation
testing, activation, upgrades, and contingency funds. In April 2007, the A-3 Project
Office further revised its cost estimate to $175 million, to include more contingency
funds.

We verified that the requirements of OMB Circular No. A-11, Section 33, “Estimates
Related to Specific Types of Programs and Expenditures,” July 2, 2007, and OMB
Circular No. A-94, “Guidelines and Discount Rates for Benefit-Cost Analysis of Federal
Programs,” October 29, 1992, were adhered to when completing the cost estimate. In
addition, the A-3 Project Office adhered to the provisions of the NASA Cost Estimating
Handbook by employing the “engineering build-up methodology,” sometimes referred to
as “grassroots” or “bottom-up” estimating. The A-3 Project Office presented the cost
estimate in a detailed Work Breakdown Structure; estimated costs were based on vendor
quotes and historical engineering test facility data; and appropriate funding was added to
cover project uncertainties and assurance that facilities provided a safe and healthful
workplace for employees.

On April 9, 2008, the A-3 Project Manager directed a standdown of some A-3 design
work until cost reviews and mitigation plans were developed because of indications of
increasing costs. An April 30, 2008, Jacobs Technology, Inc. presentation showed a
significant increase in the cost of labor and materials. Specifically, the presentation
showed increases of $16 million due to refinement of initial assumptions, $8.4 million
due to changes in A-3 design requirements, $15 million due to the increased cost of steel
and pressure vessels, and $15 million due to increased labor costs. We did not verify the
additional cost estimates.

Aerospace Corporation A-3 Cost Estimate. Aerospace Corporation stated that its
initial estimate for the development of the A-3 test stand was approximately
$390 million. However, Aerospace Corporation met with Stennis personnel and found
that the proposed design for the A-3 test stand was significantly different from the design
that Aerospace Corporation considered for its initial estimate. For example, Stennis had
more infrastructure and existing utilities in close proximity to the planned site than
Aerospace Corporation had assumed. Based on the additional information, required
upgrades, and added conservatism, Aerospace Corporation revised its A-3 cost estimate
to $173 million in April 2007. Aerospace Corporation based this cost estimate on
estimates provided by Stennis, background data from two similar Air Force projects, and
standard industry estimating tools. Aerospace Corporation also recommended a review
of the facility options for J-2X testing, both fiscally and technically, to get the most
effective strategy to support the Constellation Program and other future U.S. space
propulsion requirements.


                                                                               Enclosure 2
                                                                               Page 1 of 2
NASA Red Team A-3 Cost Estimate and Evaluation. In March 2007, NASA formed a
Red Team, consisting of Kennedy Space Center and Marshall personnel and a consultant
from GPS Solutions, to review the A-3 Project Office’s $163 million cost estimate.
Marshall’s Exploration Launch Office directed the Red Team to ensure that the A-3
Project Office’s estimate was sufficient for a complete and operational facility. The Red
Team was also tasked with evaluating environmental plans; approval and acquisition
strategy; and technical risk mitigation plans to ensure a realistic schedule. On April 12,
2007, the Red Team presented its results to the RPT Program office and the Constellation
Program Office. The Red Team’s estimate of $185 million for the A-3 test stand
included more upgrades and contingency funds than the March 2007 A-3 Project Office
cost estimate of $163 million. The Red Team also concluded that the A-3 schedule was
achievable and the technical risk was manageable.

AEDC J-4 Estimate. AEDC’s J-4 facility has been in an inactive status since December
2001. The initial cost estimate for upgrading and activating the J-4 facility was
$112 million, as documented in AEDC’s January 19, 2007, study, “J-4 Test Facility
Reactivation and Modification Study for NASA’s Ares I J-2X Engine Simulated Altitude
Test Program.” However, on March 1, 2007, AEDC informed the RPT Program office
and the Exploration Launch Office of a technical issue with AEDC’s original J-4 concept,
related to the exhaust plant performance, which would increase the estimated cost to
$152 million. In AEDC’s “J-4 Test Facility Re-Study for NASA’s Ares I J-2X Engine
Simulated Altitude Test Program” presentation of April 2007, AEDC provided NASA a
revised estimate of $163 million. In June 2007, AEDC provided comments in response
to NASA’s May 2007 decision briefing to the NASA Administrator. The comments
included a final AEDC estimate of $166 million to activate and modify the J-4 to meet
the test requirements of the J-2X.

Plum Brook Station B-2 Estimate. In January 2007, Plum Brook Station provided a
cost estimate of $131 million to upgrade and modify the B-2 to meet J-2X testing
requirements. Additionally, the Exploration Launch Office requested that NESC perform
a feasibility assessment of conducting J-2X engine testing at the B-2. NESC issued a
report on its assessment on March 15, 2007, in which NESC concluded: “The concepts
defined for the increase facility capability for J-2X are costly extensions of the current
capability. The cost estimates for rehabilitation and increased capability were in the
$173-198M range.”




                                                                              Enclosure 2
                                                                              Page 2 of 2
Management’s Comments




                        Enclosure 3
                        Page 1 of 2
Enclosure 3
Page 2 of 2
